HHS/OIG, Audit -"Review of Montana's Accounts Receivable System for Medicaid Provider
Overpayments for the Period October 1, 2002, through September 30, 2004,"(A-07-05-03064)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Montana's Accounts Receivable System for Medicaid Provider Overpayments for the Period
October 1, 2002, through September 30, 2004," (A-07-05-03064)
March 10, 2006
Complete
Text of Report is available in PDF format (541 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report is part of a multistate audit.  Our objective was to
determine whether the State agency, Montana Department of Public Health and Human Services,
reported Medicaid provider overpayments in accordance with Federal requirements.  The
State agency did not report 195 Medicaid provider overpayments totaling $3,685,465 ($2,731,303
Federal share) in accordance with Federal requirements.  In addition, the State agency
delayed reporting 68 overpayments totaling $1,278,197 ($944,216 Federal share) within required
timeframes, resulting in $66,526 of higher interest expense to the Federal Government.
We recommended that the State agency: (1) include on the CMS-64 the unreported
overpayments, the uncollected portion of overpayments that were settled at reduced amounts,
and the unreported MFCU-identified overpayments and refund $2,731,303 Federal share; (2)
determine the value of overpayments identified after our audit period and include them on
the CMS-64; (3) reduce overpayments only when it can support that providers are bankrupt
or out of business; (4) develop policies and procedures to ensure that overpayments are reported
on the CMS-64 in accordance with Federal regulations; and (5) report all future overpayments
within 60 days.  The State agency agreed.